<html>
<title> - U.S. PREPARATION FOR THE WORLD RADIO CONFERENCES: TOO LITTLE, TOO LATE?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





U.S. PREPARATION FOR THE WORLD RADIO CONFERENCES: TOO LITTLE, TOO LATE?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 17, 2004

                               __________

                           Serial No. 108-180

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
95-268                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
              Grace Washbourne, Professional Staff Member
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
------ ------                        JOHN F. TIERNEY, Massachusetts
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 17, 2004...................................     1
Statement of:
    Bryant, John, former Congressman and U.S. Ambassador to 1997 
      World Radio Conference; Gail Schoettler, U.S. Ambassador to 
      2000 World Radio Conference; and Janice Obuchowski, U.S. 
      Ambassador to 2003 World Radio Conference..................    96
    Shane, Jeffrey N., Under Secretary for Transportation Policy, 
      U.S. Department of Transportation; William Readdy, 
      Associate Administrator for Space Flight, National 
      Aeronautic and Space Administration; Michael Gallagher, 
      Acting Assistant Secretary for Communications and 
      Information, National Telecommunications and Information 
      Administration, U.S. Department of Commerce; Kathleen 
      Abernathy, Commissioner, Federal Communications Commission; 
      Ambassador David Gross, U.S. Coordinator, International 
      Communications and Information Policy, U.S. Department of 
      State; and Lin Wells, Principal Deputy Assistant Secretary 
      of Defense, Networks and Information Integration, U.S. 
      Department of State........................................     6
Letters, statements, etc., submitted for the record by:
    Abernathy, Kathleen, Commissioner, Federal Communications 
      Commission, prepared statement of..........................    39
    Bryant, John, former Congressman and U.S. Ambassador to 1997 
      World Radio Conference, prepared statement of..............    99
    Gallagher, Michael, Acting Assistant Secretary for 
      Communications and Information, National Telecommunications 
      and Information Administration, U.S. Department of 
      Commerce, prepared statement of............................    27
    Gross, Ambassador David, U.S. Coordinator, International 
      Communications and Information Policy, U.S. Department of 
      State, prepared statement of...............................    51
    Obuchowski, Janice, U.S. Ambassador to 2003 World Radio 
      Conference, prepared statement of..........................   108
    Readdy, William, Associate Administrator for Space Flight, 
      National Aeronautic and Space Administration, prepared 
      statement of...............................................    19
    Schoettler, Gail, U.S. Ambassador to 2000 World Radio 
      Conference, prepared statement of..........................   104
    Shane, Jeffrey N., Under Secretary for Transportation Policy, 
      U.S. Department of Transportation, prepared statement of...     8
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Wells, Lin, Principal Deputy Assistant Secretary of Defense, 
      Networks and Information Integration, U.S. Department of 
      State, prepared statement of...............................    68

 
U.S. PREPARATION FOR THE WORLD RADIO CONFERENCES: TOO LITTLE, TOO LATE?

                              ----------                              


                       WEDNESDAY, MARCH 17, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:14 a.m., in 
room 2154, Rayburn House Office Building, Hon. Michael Turner 
(vice-chairman of the subcommittee) presiding.
    Present: Representatives Shays, Platts, Duncan, 
Ruppersberger, and Watson.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy advisor; Thomas 
Costa, professional staff member; Robert Briggs, clerk; Grace 
Washbourne, professional staff member, full committee; Jean 
Gosa, minority assistant clerk; and Andrew Su, minority 
professional staff member.
    Mr. Turner. Good morning. Our hearing this morning, 
entitled, ``U.S. Preparation for the World Radio Conferences: 
Too Little, Too late,'' is called to order.
    Last June, a White House memo to all executive branch 
departments and agencies concluded the existing legal and 
policy framework for spectrum management has not kept pace with 
the dramatic changes in technology and spectrum use.
    Today we will discuss one element of that dated policy 
apparatus--the internal preparations and external consultations 
used by the Department of State and other Federal departments 
to prepare for World Radio Conferences, the international 
meetings where critical decisions are made that shape worldwide 
communication policies and markets.
    Spectrum is global. Spectrum is finite. Immutable laws of 
physics govern the electromagnetic waves that connect the 
world's governments, businesses, and citizens in new ways every 
day.
    Any nation that cannot articulate clear positions, protect 
its vital interests, and work to forge multilateral consensus 
on spectrum issues puts its national security and economic 
vitality at risk. Unilateralism is not an option. An analog 
America would not be safe or prosperous in a digital world.
    The World Radio Conference in Geneva, Switzerland, last 
year challenged the United States to formulate timely, 
technically complex, and politically sensitive positions on a 
large number of agenda items. Many Federal agencies, including 
the Department of Defense, NASA, and the FAA depend on 
exclusive, long-term access to coveted frequencies to 
accomplish their missions. They have had substantial equities 
at risk in the WRC outcome. A vibrant and growing commercial 
sector was eager to capitalize on rapidly expanding markets for 
digital telephones, wireless Internet services, substance abuse 
transmissions, GPS-based products, and more. Competition and 
conflicts among and between governmental and commercial users 
seeking to keep or gain access to prime, technically superior 
spectrum bands had to be resolved before the U.S. could present 
a unified negotiating position to the world.
    As we will hear, the process used to involve public and 
private stakeholders, resolve inter-agency disputes, vet 
proposed positions, solicit international support, and counter 
opposing regional coalitions yielded substantial success in 
Geneva. Important lessons were learned about the quality and 
quantity of preparatory consultations, delegation training, and 
international outreach. But WRC 2003 also confirmed some 
longstanding institutional weaknesses in U.S. spectrum policy 
management.
    The United States has no over-arching spectrum strategy to 
guide near- and long-term policy on use of this precious finite 
resource. Separate responsibility for commercial spectrum 
allocation decisions at the Federal Communication Commission 
and Federal spectrum policies at the National 
Telecommunications and Information Administration make 
conflicts between public and private users almost inevitable 
and more difficult to resolve. No head of the U.S. delegation 
is appointed more than 6 months before the next WRC convenes, 
long after other nations have been conducting important 
discussions at that level.
    The next World Radio Conference is scheduled to convene in 
2007. Today we ask our witnesses: will we be ready? Will the 
final report of the White House Spectrum Policy Initiative 
address management weaknesses that can hobble WRC preparations 
and prospects? Will the procedures, policies, resources, and 
people we assemble effectively represent the vital interests of 
the United States at that crucial international forum?
    Our two panels of witnesses bring impressive expertise and 
hard-won experience to this discussion, and we are grateful for 
their time and talent, and we welcome you.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T5268.001
    
    [GRAPHIC] [TIFF OMITTED] T5268.002
    
    Mr. Turner. I'd like to welcome Mr. Ruppersberger, who has 
an opening statement for us.
    Mr. Ruppersberger. Thank you. Mr. Chairman, thank you for 
calling this hearing on spectrum allocation and the upcoming 
World Radio Conference. It is important for us as the 
policymakers to understand what role spectrum plays in our 
country and the world, and the implications of not having a 
unified or negotiated voice when we address spectrum allocation 
in an international forum.
    The need for appropriate spectrum allocation is vital to 
our country. Spectrum is essential for communication, for 
Homeland Security, and for commerce. Commercial entities rely 
on their spectrum allocation to determine how best to utilize 
their spectrum to offer a wide variety of service. Last, law 
enforcement relies on spectrum to be able to instruct officers 
that they are on the scene of an accident, and it is vital so 
that our troops can be commanded and directed appropriately in 
battle. But what is the larger question and what is at stake is 
American leadership in future telecommunications directions.
    Our current process of preparing for the WRC is a multi-
step process that allows all the interested and vested parties 
some say in what direction we should move as a country. The FCC 
handles commercial, NTIA handles government, and a smaller 
working group with the FCC and NTIA and the State Department 
meets. Not only do they have very commercial interests, but you 
throw in the needs of all of the different agencies and 
departments of the Federal Government. With all these competing 
interests, do we as a country lose out as a whole? I look 
forward to understanding more about the process and how we can 
ensure America stays as the telecommunications leader.
    Mr. Turner. Thank you, Mr. Ruppersberger.
    Now we recognize our chairman, Chairman Shays.
    Mr. Shays. Thank you, Mr. Chairman. And thank you, Mr. 
Turner, for chairing this. I am at a Budget Committee bringing 
out the budget resolution. I think this is a hugely important 
issue, and I recognize that the spectrum is global, and that we 
need to be global players. I really want my country to be 
working overtime on this issue. And while I believe there needs 
to be unilateral action in issues of war and peace at times, 
not necessarily the preferred way but sometimes the only way. 
On this issue we have to work as closely as we can with others 
to resolve our differences and make sure that we optimize what 
we believe is in our Nation's best interest. I just wanted to 
personally come here to thank all our witnesses and, as well, 
to explain my absence.
    Thank you very much, Mr. Chairman.
    Mr. Turner. Thank you, Mr. Chairman. We appreciate your 
leadership in this issue.
    I'd like to recognize Ms. Watson.
    Ms. Watson. I'll pass at the moment.
    Mr. Turner. Our panelists today in panel one are: Jeffrey 
N. Shane, the Under Secretary for Transportation Policy, U.S. 
Department of Transportation; William Readdy, Associate 
Administrator for Space Flight, National Aeronautic and Space 
Administration; Michael Gallagher, Acting Assistant Secretary 
for Communications and Information, National Telecommunications 
and Information Administration, U.S. Department of Commerce; 
Commissioner Kathleen Abernathy, Federal Communications 
Commission; Ambassador David Gross, U.S. Coordinator, 
International Coordinations and Information Policy, U.S. 
Department of State; and Dr. Lin Wells, Acting Assistant 
Secretary for NII Networks and Information Integration, U.S. 
Department of Defense.
    If you would all stand to take the oath, we do swear in our 
witnesses in this committee.
    [Witnesses sworn.]
    Mr. Turner. Please note for the record that the witnesses 
have responded in the affirmative.
    I ask unanimous consent that all members of the 
subcommittee be permitted to place any opening statement in the 
record, and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I further ask unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered.
    We begin our testimony today with Mr. Shane.

      STATEMENTS OF JEFFREY N. SHANE, UNDER SECRETARY FOR 
   TRANSPORTATION POLICY, U.S. DEPARTMENT OF TRANSPORTATION; 
   WILLIAM READDY, ASSOCIATE ADMINISTRATOR FOR SPACE FLIGHT, 
     NATIONAL AERONAUTIC AND SPACE ADMINISTRATION; MICHAEL 
 GALLAGHER, ACTING ASSISTANT SECRETARY FOR COMMUNICATIONS AND 
   INFORMATION, NATIONAL TELECOMMUNICATIONS AND INFORMATION 
   ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE; COMMISSIONER 
    KATHLEEN ABERNATHY, FEDERAL COMMUNICATIONS COMMISSION; 
    AMBASSADOR DAVID GROSS, U.S. COORDINATOR, INTERNATIONAL 
   COMMUNICATIONS AND INFORMATION POLICY, U.S. DEPARTMENT OF 
 STATE; AND LIN WELLS, PRINCIPAL DEPUTY ASSISTANT SECRETARY OF 
DEFENSE, NETWORKS AND INFORMATION INTEGRATION, U.S. DEPARTMENT 
                            OF STATE

    Mr. Shane. Thank you, Mr. Chairman. We at the Department of 
Transportation are very grateful to Chairman Shays and members 
of the subcommittee for first holding this very important 
hearing and bringing its special perspective to the question of 
spectrum allocation and preparation for the WRC, and 
particularly we are grateful for your invitation to us, to the 
Department of Transportation, to be here.
    Radio spectrum decisions made at the World Radio 
Conferences have a significant long-term impact on the safety, 
efficiency, and effectiveness of our Nation's transportation 
system and play a vital role in helping us to plan for and meet 
our critical infrastructure needs. Radio spectrum under DOT's 
purview essentially serves as an enabler for a wide variety of 
land, sea, air, and space transport applications. As we work to 
modernize and improve our national transportation system, we 
rely on uninterrupted access to clean spectrum to support a 
broad range of communications, navigation, and surveillance 
systems. In fact, DOT is the second largest user and service 
provider of all radio services in the Federal Government.
    For example, the Department facilitates the use of spectrum 
to support effective communications links between public 
transportation agencies and first responders. Our intelligent 
transportation system program uses wireless technologies to 
reduce accidents, to ease congestion, and alert rescue 
vehicles. With our partners in Canada, we operate a state-of-
the-art vessel traffic system on the St. Lawrence Seaway using 
automatic identification system technology to provide accurate, 
real-time information for navigation, communication, and 
security throughout the St. Lawrence Seaway and the Great 
Lakes.
    GPS, of course, is a core technology--the global 
positioning system--operated by the Department of Defense, but 
it is also one that has critical civilian applications, as 
everyone knows. These applications are already providing 
tremendous benefits in areas like air and sea navigation, 
highway safety, positive train control, and even wireless E911 
positioning. That's why DOT attaches such importance to 
spectrum issues, both domestically and internationally. That's 
also why we have consistently supported our U.S. delegations in 
their pursuit of American interests at previous World Radio 
Conferences and why we are currently involved in the 
preparatory work that has already begun for the 2007 
conference.
    The Department will play an active role as the U.S. 
Government works to determine which items should be addressed 
at the 2007 conference. We will work to identify ways in which 
aviation can use radio spectrum more efficiently so that 
current and future needs can be met through our existing band 
allocations. We also hope to use the 2007 conference as an 
opportunity to explore ways to stimulate the development of 
standardized intelligent transportation systems around the 
world.
    Last December the FCC completed licensing rules on the 5.9 
gigahertz band here in the United States for use by dedicated 
short-range communications technologies, the spectrum enabler 
for ITS systems. ITS applications will provide tremendous 
safety benefits to our Nation's highways through collision 
avoidance systems and other technologies, but standardizing 
equipment and protocols around the world is simply the single 
most important thing we can do to reduce costs and hasten the 
delivery of the systems to large numbers of drivers.
    Again, Mr. Chairman, thank you very much for inviting the 
Department of Transportation to be here. We look forward to 
answering questions at the appropriate time.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Shane follows:]

    [GRAPHIC] [TIFF OMITTED] T5268.003
    
    [GRAPHIC] [TIFF OMITTED] T5268.004
    
    [GRAPHIC] [TIFF OMITTED] T5268.005
    
    [GRAPHIC] [TIFF OMITTED] T5268.006
    
    [GRAPHIC] [TIFF OMITTED] T5268.007
    
    [GRAPHIC] [TIFF OMITTED] T5268.008
    
    [GRAPHIC] [TIFF OMITTED] T5268.009
    
    [GRAPHIC] [TIFF OMITTED] T5268.010
    
    Mr. Turner. Mr. Readdy.
    Mr. Readdy. Thank you, Mr. Chairman, members of the 
subcommittee. It is an honor for me, as NASA's radio frequency 
spectrum manager, an astronaut, and also associate 
administrator for Space Flight to be here to talk to you about 
the World Radio Communications Conference process and explain 
how critically important spectrum allocation is to all of our 
NASA missions.
    A NASA mission--understand, protect our home planet, to 
explore the universe and search for life, and inspire the next 
generation of explorers as only NASA can. Importance of 
reliable radio communications for NASA's wide array of 
scientific and operational missions cannot be overstated. We 
depend on it every day, launching spacecraft, sending and 
receiving critical information to and from our assets in space, 
including spirit and opportunity currently exploring the 
Martian surface, for scientific observatories like Hubble, 
Chandler and Spitzer, and the constellation of earth-observing 
meteorological communications spectrum allocations circling the 
globe as we speak. Also circling the globe every 90 minutes as 
we speak is international space station, and on board it, its 
eight permanent expedition crew, Commander Michael Fole and 
Flight Engineer Alexander Clary. They, too, depend on spectrum 
for their navigation, telemetry, communications, health 
monitoring, and ultimately their safety. And when the shuttle 
returns to flight next spring, those crews will also rely on 
spectrum for safe and successful execution of their missions.
    As a shuttle astronaut, from the unique vantage point of 
space, once you've seen the earth from a distance you realize 
there is a single atmosphere and single ocean that surround 
this magnificent planet of ours. You also realize how 
perishable they are, and that they are resources we must share 
and conserve. So, too, it is with spectrum. Like the air we 
breathe and the water we drink, we take spectrum for granted. 
Spectrum is vital for existence in this technologically 
advanced 21st century we live in. Lives depend on reliable 
communications, and in emergencies lives are also saved by 
effective, cooperative use of spectrum.
    Just last year I was at a NOAA ceremony over at Department 
of State with Ambassador Gross and Vice Admiral Lautenbacher 
celebrating the success of the satellite based co-spa SAR-SAT 
system which had just surpassed 14,000 lives saved. NASA is 
very proud of its contributions to the beacon and locating 
technologies used.
    As we expand our horizons beyond low earth orbit to explore 
space and moon and on to Mars, that lifeline will become even 
more important, more critical. We won't leave home without it.
    Some of those architectures are already in place right now, 
bringing us pictures from the Red Planet. Spirit and 
opportunity. And since January there have been over 7 billion 
hits on the NASA Web site from over 100 million different web 
addresses.
    Our only means of communication, control of receiving and 
transmitting data to aircraft and spacecraft is via radio. 
Because space and spectrum knows no borders, NASA must work 
cooperatively with the other U.S. agencies, the private sector, 
and other nations, and successful allocation of spectrum for 
our missions is absolutely dependent on success of negotiations 
within the global community that is conducted at the World 
Radio Communications Conferences.
    I'm very proud of NASA's excellent track record in 
succeeding in the negotiations that achieve our necessary 
allocations for these scientific missions, and I'd like to 
submit three specifically bulletins that describe the specific 
successes at World Radio Telecommunications Conference 2003. 
The success was due in no small part to NASA's reputation for 
technical excellence in achievement that is respected 
worldwide. But to be successful we at NASA also must work very 
closely with the NTIA, with our colleagues from other 
departments and agencies as part of the Administration, and 
with our industry partners as members of the U.S. delegation.
    We also hold a rather unique role due to our strong 
partnerships with international space agencies around the 
world. As you know, the ITU, International Telecommunications 
Union, is part of the U.N. system operated on the basis of one 
country/one vote. Scientists have learned to speak the same 
language, no matter where they are from, and often they speak 
with one voice. Scientific research and space exploration have 
universal appeal and shared interest.
    Since 1958 when the National Aeronautics and Space Act was 
signed, NASA has concluded over 3,000 agreements with over 100 
countries and international organizations, and in this last 
decade nearly 900. We've maintained an active participation in 
World Radio Conferences since 1959.
    Preparation is the key to success, and NASA is currently 
preparing in Geneva right now. The U.S. National Committee 
Study Group Seven--Space, Science, and Services--with Mr. Dave 
Struba over there with three working groups, and those meetings 
will generate the body of technical data that will assist World 
Radio Conference 2007 conferees to conduct their business. 
That's the key to success is early preparation.
    Having attended and participated in the last two 
conferences, I believe our successes are also based on 
achieving those technically sound bases for the decisions that 
are made, and during those conferences we count on the strong 
leadership and negotiating skills of the U.S. Ambassador and 
the unity and teamwork that the U.S. delegation provides. As a 
Presidential appointee, the Ambassador and head of the U.S. 
delegation enjoys the confidence of the administration, 
possesses the political sensitivities and negotiating skills 
required in that critical role. We were extremely well served 
by the leadership, technical expertise, and skillful 
negotiating talents of Ambassador Janice Obuchowski in 2003 and 
Gail Schoettler in 2000.
    Ongoing fruitful cooperation partnership with other U.S. 
Federal Government agencies, industry, and global 
communications community is crucial for providing and defending 
critical radio spectrum for accomplishing NASA's scientific 
missions and leading the world's civil space program.
    The vision for space exploration announced by the President 
on January 14th only serves to underscore NASA's need to remain 
actively engaged in spectrum management today in order to 
preserve spectrum for use in exploration of space now and for 
decades to come.
    Thank you for this opportunity.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Readdy follows:]

    [GRAPHIC] [TIFF OMITTED] T5268.011
    
    [GRAPHIC] [TIFF OMITTED] T5268.012
    
    [GRAPHIC] [TIFF OMITTED] T5268.013
    
    [GRAPHIC] [TIFF OMITTED] T5268.014
    
    [GRAPHIC] [TIFF OMITTED] T5268.015
    
    Mr. Turner. Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman. I'd like to echo 
Under Secretary Shane's appreciation to this committee and to 
Chairman Shays for his outstanding leadership on spectrum 
issues and spectrum policy matters. It is an honor to be here 
this morning. It is also an honor to be here with my colleagues 
in the administration who are truly engaged and understand the 
importance of spectrum and spectrum policy.
    World Radio Conferences are month-long negotiations 
involving over 2,000 delegates from nearly 150 countries. World 
Radio Conferences bring together politics, economics, and 
technical developments on an international stage to determine 
the spectrum available and the regulations that will govern 
wireless development, scientific investigation, safety, and 
security. The United States has but one vote in this 
environment, and yet has enjoyed high level of success working 
with the world community to bring forth new services while 
safeguarding critical operations.
    This morning I would focus on four key words that are the 
ingredients for success. The first is leadership. Leadership 
means providing guidance, vision, and setting priorities and 
decisively resolving conflicts. Leadership fundamentally 
depends upon people and how they work together. The President 
made the World Radio Conference an early priority to senior 
White House staff. In 2003, in turn, the Secretary of Commerce 
made it a priority for NTIA. We received direction and guidance 
from the Secretary and from the National Security Council and 
the National Economic Councils to ensure that we stayed on task 
and on time.
    Ambassador Obuchowski, Chairman Powell, NTIA leadership, 
other Federal agencies, and the private sector embrace the need 
for aggressive, early work.
    World Radio Conferences run in 2- to 4-year cycles and 
senior management needs to be engaged during that period to 
support the hard work of the career staff who have the 
thankless task of preparing the extremely important details and 
analyses that undergird a successful World Radio Conference. 
Certainly one of the questions to be answered in reviewing the 
work process is how to ensure continuity of leadership in the 
future. We recommend establishing a steering group consisting 
of senior agency leadership who will take on the responsibility 
for guiding World Radio Conference activities and for 
identifying and resolving conflicts early to maximize the 
opportunity for the United States to achieve success with its 
international neighbors.
    The second ingredient would be balance. We are called upon 
to balance our economic security with our national security, 
and as the Secretary of Commerce has informed me, given the 
choice between the two, do both.
    Spectrum is an indispensable building block for America's 
future that fuels economic growth. A constant flow of new 
technologies, new services, and products characterize the 
global wireless market. New startups such as Vivato and Etheros 
join established companies like the Boeing Co., Lockheed 
Martin, Intel to contribute growth in our high technology 
economic, and they rely on the U.S. Government's ability to 
make spectrum available.
    In 2003 the United States achieved outstanding successes in 
more than doubling the amount of spectrum for wi-fi devices at 
five gigahertz and agreeing on the common rules on a global 
basis for those devices. These rules are already helping U.S. 
industry to market new technologies in countries previously 
closed to such devices and services. The Boeing Co.'s 
connection service or broad band in the sky using the 14 
gigahertz band is another example where the World Radio 
Conference results lead directly to economic growth and job 
creation.
    World Radio Conferences are also key to our national 
security and our homeland security, and to scientific 
investigation of the earth's resource in outer space. 
Negotiations at the World Radio Conference in 2003 safeguarded 
spectrum access for the next generation of GPS by overcoming a 
challenge to GPS modernization by Europe. Furthermore, as we 
provided spectrum for wi-fi devices at five gigahertz, we 
ensured that wi-fi devices around the world will protect our 
critical radar systems, a perfect example of technical 
expertise and cooperation to bring forth a result that meets 
balanced priorities.
    The third ingredient is execution. Based on past 
experiences, we began our preparations for this work earlier 
than ever, organizing immediately after the close of the 2000 
World Radio Conference. We facilitated interaction of 
government and commercial entities to form well-grounded 
technical and impactful proposals. We advanced the issues and 
concluded our preparations in enough time to impress our 
priorities on America's region and to the rest of the world. We 
also put forth a delegation team of approximately 150 
government and private sector experts. Behind the outstanding 
leadership of Ambassador Obuchowski were career staff such as 
Jim Vorhees and Alex Royblad who oversaw the NTIA and FCC 
preparations. The outstanding success of the five gigahertz 
items served as a microcosm of teamwork. Charles Glass at NTIA 
teamed effectively with Warren VanWayser of the FCC, Jerry 
Connor of the Department of Defense, John Zuzek of NASA. 
Industry tirelessly supported this work with the efforts of 
Scott Harris, Rob Cubic, Dave Case, and others.
    However, execution does not end when the doors close on the 
Conference. To take advantage of the successes of the 
conference, the results need to be reflected in U.S. national 
regulations. While implementation was a recognized problem in 
the past, NTIA and the FCC quickly established a plan for 
implementing the results of the World Radio Conference. A 
number of the items have already moved through FCC rulemakings, 
and soon we'll consider an omnibus rulemaking covering most of 
the remaining World Radio Conference 2003 results. We recommend 
establishment of this arrangement as a permanent part of the 
World Radio Conference process.
    A final ingredient is improvement. Regardless of past 
successes, we must continue to improve our processes and adapt 
as the world changes. The United States needs to be prepared to 
address the evolving challenges presented by World Radio 
Conferences or risk relinquishing its global leadership role in 
telecommunications and technology development and deployment. 
We have been conducting a review of our processes and will 
report on the outcome of that assessment in the near future. We 
expect our recommendations to cover senior level engagement, 
cooperation and coordination, outreach, delegation preparation, 
and World Radio Conference implementation.
    So, in conclusion, our experience has taught us the 
benefits of early and thorough preparation and the importance 
of our staff and senior agency leaders working together to come 
to resolutions on difficult issues and of reaching out to other 
countries. In particular, we appreciate the efforts of those on 
this panel and those that support them and the panel that 
follows, the Ambassadors who have lead the previous work 
delegations in recent years. We continue to work to improve our 
processes and to ensure the continued success of the United 
States so essential to our economic and national security. We 
thank you again for the leadership of this committee, and I 
look forward to answering any questions you may have.
    Mr. Turner. Thank you.
    [The prepared statement of Mr. Gallagher follows:]

    [GRAPHIC] [TIFF OMITTED] T5268.016
    
    [GRAPHIC] [TIFF OMITTED] T5268.017
    
    [GRAPHIC] [TIFF OMITTED] T5268.018
    
    [GRAPHIC] [TIFF OMITTED] T5268.019
    
    [GRAPHIC] [TIFF OMITTED] T5268.020
    
    [GRAPHIC] [TIFF OMITTED] T5268.021
    
    [GRAPHIC] [TIFF OMITTED] T5268.022
    
    [GRAPHIC] [TIFF OMITTED] T5268.023
    
    [GRAPHIC] [TIFF OMITTED] T5268.024
    
    Commissioner Abernathy. Good morning, Mr. Chairman and 
distinguished members of the subcommittee. Thank you for the 
opportunity and the honor to appear today to testify on the 
issue of U.S. preparation for the World Radio Conferences.
    As was mentioned, the WRC process has become increasingly 
important and complex over the past several years as 
unprecedented progress in the development of radio 
communication services has resulted in an ever-increasing 
demand for access to the spectrum resources. Because of the one 
country/one vote system at the WRC, successful participation 
requires thorough advance preparation by the United States and 
then active participation at the conference. WRC 2003 was no 
exception. Forty-eight agenda items were considered, and the 
primary focus was the deployment, growth, and evolving use of a 
broad range of spectrum-based services such as wi-fi and the 
provision of broadband services via satellites and airplanes.
    In light of such an extensive agenda, the United States 
started its preparation process immediately following WRC 2000, 
and we sent an expert delegation of public and private sector 
participants to the conference. This advanced preparation, as 
has been mentioned, was invaluable, and when combined with an 
ambitious international outreach effort by the U.S. delegation 
led by Ambassador Janice Obuchowski, the United States returned 
from WRC 2003 with a long list of accomplishments.
    Just to name a few, the U.S. team ensured spectrum remains 
available for the introduction of new technologies, incumbent 
radio communications services remained protected from 
interference, new commercial ventures can be pursued, and we 
should see increased global competition and jobs creation. I 
was proud to be able to serve on the delegation at this year's 
conference, along with Ambassador David Gross, Former Assistant 
Secretary of Commerce Nancy Victory, and Associate NASA 
Administrator William Readdy, as well as other esteemed 
representatives from the Government and the private sector.
    I believe that there are several reasons for the successful 
outcome of WRC 2003. First and foremost was the extensive 
coordination between FCC, NTIA, including all the executive 
branch agencies that it acts on behalf of, the Department of 
State, and then the private sector. This early effort 
solidified U.S. positions which could then be negotiated 
internationally. Fortunately, we all shared a common goal: U.S. 
success at the Conference.
    Second, the high quality and expertise of the U.S. 
delegation members enabled substantive participation at the 
Conference at all levels. Until you are there, it is hard to 
appreciate how significantly the other countries look to the 
United States for our technical expertise.
    Third, the international outreach effort of the United 
States, both before the Conference and at the WRC, allowed the 
United States to garner much-needed international support.
    Finally, I believe that the able leadership of Ambassador 
Obuchowski was crucial to the success of the United States.
    The FCC also made a significant contribution to the overall 
success of the U.S. delegation. Not only did FCC staff serve as 
U.S. spokespersons on nearly half of the items addressed by the 
Conference, but the FCC was an integral part of the government 
and industry team that developed the successful U.S. strategy 
and positions. Moreover, following the conclusion of WRC 2003 
the FCC, under the leadership of Chairman Michael Powell, and 
in coordination with our friends at NTIA, acted quickly to 
implement many of the decisions from the Conference.
    Finally, to ensure that the United States is well prepared 
for the next Conference, the Commission has initiated 
preparation for WRC 2007 by convening an Industry Advisory 
Committee which held its first meeting this past January.
    Now, the dual challenges of the ever-increasing demand for 
spectrum and the WRC's one country/one vote system requires the 
United States to work smarter and continually re-evaluate our 
preparatory process for the WRC. I know the FCC, the Department 
of State, NTIA, NASA, DOD, DOT, and pretty much all the 
agencies that are dependent on spectrum, are committed to 
improving the effectiveness of the United States at each WRC, 
frankly, because there's no other option.
    At the FCC we've made process improvements that include 
increasing the transparency of the FCC preparatory process, 
increasing our coordination with other Government agencies, 
enhancing public participation in the development of U.S. 
positions, increasing our outreach to other countries, and 
implementing the decisions from each WRC quickly.
    Last year, the Commission held a public meeting to evaluate 
the FCC's efforts at WRC 2003. This meeting confirmed that the 
private sector, and State and local public safety communities 
embraced the changes that we had made to date, and we're 
continuing to work toward additional process improvements so 
the United States can be ever more successful at upcoming WRCs.
    I see we've got some guests coming in.
    [Note.--Group of midle school students entered the hearing 
room.]
    Commissioner Abernathy. We're talking about the World Radio 
Conference. This is a very important Conference. This is where 
the United States decides if we are going to have spectrum for 
you guys to watch TV, listen to the radio, use your computers, 
instant message everyone. So this is all a big cooperative 
effort that has to go on with all the countries in the world.
    Now, more specifically, we need to improve our further 
international outreach. We're hampered by two things that many 
of us are hampered with in our daily lives. We're hampered by a 
lack of time and a lack of money. In an ideal world, the United 
States would have all of its positions for an upcoming 
Conference determined and agreed upon months in advance of a 
Conference, and we would have a budget that would then allow us 
to meet with as many countries as possible to ensure that we 
would be successful. But, given the real world, I do believe 
there are some solutions out there that allow us to work within 
these constraints.
    First, the FCC should continue to foster close working 
relationships with other regulatory administrations and 
regional organizations. This means opening our doors to 
visiting delegations and building relationships with regulators 
from around the world, and working with my colleague Ambassador 
Gross to ensure that we have these relationships in advance of 
the meetings. As part of this effort, I have agreed to chair 
the next ITU Global Regulators Symposium.
    Second, the FCC should continue its work with the 
Department of State and the other Government agencies in 
expanding U.S. participation in the WRC preparatory efforts in 
the developing countries and build on all of our global 
relationships through private entities or organizations that 
have them already developed.
    Overall, I've found that each WRC cycle brings additional 
refinements to the process, and the FCC is committed to working 
with Congress and its colleagues across the Government and the 
private sector to ensure that the United States can continue 
its leadership position. That's why I remain optimistic about 
our ability to navigate the complex ITU processes and ensure 
continued success for the United States.
    So thank you for your time. I look forward to answering any 
questions you may have.
    Mr. Turner. Thank you.
    [The prepared statement of Commissioner Abernathy follows:]

    [GRAPHIC] [TIFF OMITTED] T5268.025
    
    [GRAPHIC] [TIFF OMITTED] T5268.026
    
    [GRAPHIC] [TIFF OMITTED] T5268.027
    
    [GRAPHIC] [TIFF OMITTED] T5268.028
    
    [GRAPHIC] [TIFF OMITTED] T5268.029
    
    [GRAPHIC] [TIFF OMITTED] T5268.030
    
    [GRAPHIC] [TIFF OMITTED] T5268.031
    
    [GRAPHIC] [TIFF OMITTED] T5268.032
    
    [GRAPHIC] [TIFF OMITTED] T5268.033
    
    [GRAPHIC] [TIFF OMITTED] T5268.034
    
    Mr. Turner. Ambassador Gross.
    Ambassador Gross. Thank you very much, Mr. Chairman. 
Welcome to everyone. I don't think I have ever been to a more 
well-attended hearing than the one we have today, which 
underscores the importance and the reason for having the 
hearing today, not just about what we've done in the past but 
really what it means for the future and looking forward. The 
issues, as Commissioner Abernathy just talked about, for 
everyone just joined, has to do with spectrum, has to do with 
the international aspects of spectrum and making sure you all 
have enough spectrum for your future, for your cell phones, for 
TVs, for radios, for a whole host of things, as well as to 
ensure that your national security, your future is well 
protected. It is the responsibility of the people at this 
table, who are all Government officials, senior Government 
officials, to ensure that happens.
    I want to thank you, Mr. Chairman, especially for the 
interest that you have shown and the other members of the 
committee have shown, and particularly the staff of the 
committee have shown. It meant a tremendous amount to the 
delegation at WRC 2003 and to me in particular that staff 
members came and spent time with us at the WRC to see firsthand 
what was going on. That was important to underscore the 
importance of the activities that the delegation was 
undertaking, as well as the ongoing work. So I want to thank 
them in particular for taking time out and for helping us in 
that process.
    Let me just spend a moment, if you would allow me to talk a 
little bit about my position. I am an ambassador for the United 
States and my job is to coordinate and lead all international 
telecommunications activities on behalf of the United States. 
It is my ongoing responsibility to make sure that the process, 
whether it is the WRC process or other processes, runs smoothly 
and that our work is done effectively and efficiently. The 
reason why that job is in the U.S. State Department and not 
another agency is because of the decision that was made some 
time ago that it is extraordinarily important that the work 
that we do with regard to telecommunications be done in 
complete harmony with our foreign policy--that is, to make sure 
that we get the maximum impact and that we are well informed, 
both from a foreign policy perspective as well as from a 
technical perspective, in these activities.
    I, as many of the people up here on the panel, come 
originally from the private sector, and so the concept of 
process improvement is one that is near and dear to our hearts, 
and so this process of looking back and then looking forward is 
particularly important. There is no pride of practices, and we 
constantly attempt and look very carefully trying to do process 
improvement so we can continue to do a better job for the 
American people.
    One of those aspects is the team approach, and one of the 
things that I was most proud about as we went through this 
process after the WRC 2000 was a recommitment to the team. Each 
of the agencies here at the table, as well as other agencies, 
came together both personally and organizationally to act as 
one team to work for the American people's best interest. That 
process was ongoing, extraordinarily important, and I am very 
thankful to all the members for that process.
    That process included one of the most important pieces, and 
that was the recommendation to the President of a WRC 
Ambassador. Because of the nature of the Ambassadorial position 
only lasts for approximately 6 months, it is incumbent upon the 
people at this table and our staffs and others to work 
continuously on the process, as well as the issues that are 
going on.
    As was mentioned earlier, the process for the WRC 2007 
began with the very end of WRC 2003. It is a continuing 
process. That is well understood. What is perhaps not as well 
understood is that process is continuous throughout our 
outreach on international telecommunications. We have an 
ongoing series of bilats independent of the WRC process, but 
yet each of those bilats is educated by and works in harmony 
with our upcoming WRC agenda, so we're dealing with China, 
Russia, India on an ongoing basis about a number of issues, WRC 
is always a part of that process, even well before the WRC 
Ambassador is appointed. Similarly, as we have U.N. summits the 
WRC process is always a part of our thinking. The ITU has many 
meetings, many conferences, large and small. The WRC process is 
always a part of that proceeding.
    It is also important to remember that the WRC is a treaty-
writing, and the ITU--the International Telecommunications 
Union, of which the WRC is one of the most important meetings, 
is also a treaty-based organization, and we treat it as such. 
Ultimately, however, what this is all about is doing the best 
job for the American people, bringing jobs to the American 
people, ensuring our national security. It requires all of us 
to work together. It requires all of us to be nimble, 
opportunistic, and optimistic.
    I am very pleased about the results that Ambassador 
Obuchowski was able to get for us, as well as the almost 170 
members of the delegation representing both the private sector 
and the public sector. They did an extraordinarily good job, as 
I note that other WRC's Ambassadors have been able to do. In 
going back through the record, I believe virtually every one, 
if not all, have, in fact, brought back and achieved all of 
their objectives. If the test of the work that we have done is 
whether or not we were effective in getting that which the 
American people wanted, our process has always been effective. 
Our job collectively and individually is to ensure that's true 
going forward, and you have my assurance that will be the case 
from the State Department.
    Thank you very much.
    Mr. Turner. Thank you, Ambassador.
    [The prepared statement of Ambassador Gross follows:]

    [GRAPHIC] [TIFF OMITTED] T5268.035
    
    [GRAPHIC] [TIFF OMITTED] T5268.036
    
    [GRAPHIC] [TIFF OMITTED] T5268.037
    
    [GRAPHIC] [TIFF OMITTED] T5268.038
    
    [GRAPHIC] [TIFF OMITTED] T5268.039
    
    [GRAPHIC] [TIFF OMITTED] T5268.040
    
    [GRAPHIC] [TIFF OMITTED] T5268.041
    
    [GRAPHIC] [TIFF OMITTED] T5268.042
    
    [GRAPHIC] [TIFF OMITTED] T5268.043
    
    [GRAPHIC] [TIFF OMITTED] T5268.044
    
    [GRAPHIC] [TIFF OMITTED] T5268.045
    
    [GRAPHIC] [TIFF OMITTED] T5268.046
    
    [GRAPHIC] [TIFF OMITTED] T5268.047
    
    [GRAPHIC] [TIFF OMITTED] T5268.048
    
    [GRAPHIC] [TIFF OMITTED] T5268.049
    
    Mr. Turner. We want to take this opportunity also to 
acknowledge that the students who have joined us are from the 
Kelman Academy from Cherry Hill, NJ. They are eighth graders. 
We welcome you.
    Dr. Wells.
    Dr. Wells. Thank you very much. Let me also echo the other 
speakers here today to thank the committee for its leadership 
and its interest in this.
    From the standpoint of the Department of Defense, the World 
Radio Conferences are strategically crucial for our country 
because spectrum has become the bedrock of the communications 
flows that are literally today the lifeblood of our modern 
national security systems. In addition to their importance for 
the commercial development of new technologies, a dynamic 
process that DOD supports, the WRCs affect what spectrum is 
available for military operations. This is not just true here 
but, of course, around the world.
    In an era of asymmetric warfare in which the greatest 
threats are often the most decentralized and the hardest to pin 
down, United States and allied forces require this kind of 
global access to spectrum to go wherever the enemy goes with 
greater stealth and access to firepower than the enemy can 
employ.
    WRCs then are integral to our strategic approach to network 
centric warfare and information superiority, and failure to 
prepare properly for and execute the strategies to ensure the 
spectrum access will literally have life or death consequences. 
Because of its extensive responsibilities for defending not 
only the United States but also coalition partners and allies, 
DOD has interests and equities concerning multiple spectrum 
bands. These responsibilities and interests are often not 
shared or understood by other countries, even those who may 
themselves be protected by the global umbrella of wireless 
links maintained by the United States for itself and its 
allies.
    In this complex world, DOD must ensure that it prepares for 
each World Radio Conference and communicates its obligations 
within the U.S. Government to the broader U.S. spectrum 
community, to allies, and ultimately to the WRC, itself.
    WRC 2003 underlined the growing importance of spectrum-
dependent technologies in the Nation's defense. The conference 
was convened just weeks after the liberation of Iraq. It was 
the first global spectrum conference held after the terrorist 
attacks of September 11 and the resulting War on Terror. The 
timing served to underscore the high stakes for the U.S. 
delegation in Geneva working to preserve a businesslike and 
cooperative environment for multinational diplomacy.
    The Department of Defense identified at least 30 items on 
the agenda for WRC 2003, out of a record-breaking total of 48 
agenda items that touched on national security interest and 
Department equities. Because of this, advanced preparation was 
vital to a successful outcome. Throughout the preparation phase 
and during the conference, itself, DOD devoted substantial 
human capital and financial resources. As a result, we feel we 
contributed to the successful advancement of national security 
interests that occurred during the conference.
    The U.S. approach to WRCs can function well, provided 
adequate preparation is followed by experienced and effective 
management at each conference--a point that I think all my 
colleagues have made very well. Among the many facets of this 
process are comprehensive technical preparation, effective and 
consistent outreach and regional coordination, and selection of 
dedicated delegation leadership. To a commendable extent, this 
is, in fact, just what happened for WRC 2003.
    The greatest contribution to WRC preparation and success 
that should be incorporated now is the creation of a national 
level spectrum priorities. As contemplated in the President's 
current spectrum initiative, establishing clearly articulated 
policy will lead to more informed preparations for WRCs at 
early stages of each preparation phase; therefore, we are 
committed to furthering the goals of the President's 
initiative.
    In addition, the organization of the U.S. WRC effort could 
be streamlined in some areas, including the training of 
participants and more involvement by senior leadership in the 
preparation phase.
    Let me address two points. We need to improve the quality 
of U.S. document submissions and delegate training. There is a 
shortfall in the proper use of regulatory procedures and 
language in some cases in the preparation of U.S. submissions 
to the ITUR study groups. This carries over into the work 
process, itself. Joint NTIA, FCC, State Department training 
could be targeted at improving the quality of the U.S. 
submissions, increasing the effectiveness of the U.S. 
preparations for the study groups and the work, themselves, and 
we are working with our colleagues to bring this into fruition.
    The second point is I think that we should establish senior 
leadership structure during the preparation periods. This was 
done to some extent in the run up to WRC 2003. The preparation 
phase, which constitutes much of the interim between the 
conferences, should be guided by a senior leadership group that 
is composed of top-level officials representing all of the 
relevant departments and agencies, meeting frequently to 
define. In effect, this group could obviate the need to create 
a permanent Ambassador to the WRC, which, of course, has time 
constraints in the appointments. So we have suggested a meeting 
be called among the senior leadership to initiate this process 
and look forward to going forward.
    To summarize, Mr. Chairman, as the largest user of spectrum 
resources in the United States, DOD has made a profound 
commitment to shepherd its spectrum resources as effectively as 
technology will allow. That commitment extends fully to the 
preparations for the WRC conferences, also.
    We look forward to working with this subcommittee, 
providing any assistance it can and to enhance the U.S. role at 
future WRCs.
    Thank you very much.
    Mr. Turner. Thank you, Dr. Wells.
    [The prepared statement of Dr. Wells follows:]

    [GRAPHIC] [TIFF OMITTED] T5268.050
    
    [GRAPHIC] [TIFF OMITTED] T5268.051
    
    [GRAPHIC] [TIFF OMITTED] T5268.052
    
    [GRAPHIC] [TIFF OMITTED] T5268.053
    
    [GRAPHIC] [TIFF OMITTED] T5268.054
    
    [GRAPHIC] [TIFF OMITTED] T5268.055
    
    [GRAPHIC] [TIFF OMITTED] T5268.056
    
    [GRAPHIC] [TIFF OMITTED] T5268.057
    
    [GRAPHIC] [TIFF OMITTED] T5268.058
    
    [GRAPHIC] [TIFF OMITTED] T5268.059
    
    [GRAPHIC] [TIFF OMITTED] T5268.060
    
    [GRAPHIC] [TIFF OMITTED] T5268.061
    
    [GRAPHIC] [TIFF OMITTED] T5268.062
    
    [GRAPHIC] [TIFF OMITTED] T5268.063
    
    [GRAPHIC] [TIFF OMITTED] T5268.064
    
    [GRAPHIC] [TIFF OMITTED] T5268.065
    
    [GRAPHIC] [TIFF OMITTED] T5268.066
    
    [GRAPHIC] [TIFF OMITTED] T5268.067
    
    [GRAPHIC] [TIFF OMITTED] T5268.068
    
    Mr. Turner. I appreciate all of your perspective and 
testimony and the information that you have given to us. Thanks 
for being here.
    There is no question that each of you, in describing the 
accomplishments that you have had, can cite specific results 
that have been important or have been achieved and that benefit 
both the U.S. national security and also our economy. We hear 
the words ``cooperation'' and ``teamwork,'' and that is, of 
course, important with the way this is structured.
    We know from the testimony and from the structure that we 
have here that we do have a diffusion of authority and 
interest. We note that the Federal Communications Commission 
and the Department of Commerce's National Telecommunication 
Information Administration share domestic spectrum management 
and policymaking responsibility, NTIA manages all Federal 
Government use of the spectrum, and also serves as the 
President's advisor in telecommunications matters. The FCC 
regulates and manages all commercial and private sector use of 
the spectrum, as well as State, local, and government use. And 
in international spectrum negotiation and conferences the 
Department of State exercises primary authority. So that 
diffusion of authority and responsibility, knowledge base, 
experience certainly requires the level of cooperation and 
teamwork that you need for the success level that you've had.
    But, nonetheless, that structure begs the question of what 
did not go well at WRC 2003 as we look to how we can improve 
it. What are some of the things that you would cite where we 
could have accomplished more? Mr. Shane, we'd start with you.
    Mr. Shane. Thank you, Mr. Chairman. From the vantage point 
of the Department of Transportation, the process actually 
worked very well. We have, as I explained in my remarks, a lot 
of equities in spectrum, and we participated pretty thoroughly 
and quite prominently, I would say, in the preparations for the 
WRC of 2003. Ambassador Obuchowski was in my office a number of 
times in anticipation of that. She didn't require any prompting 
from me. She came on her own motion to chat about the things 
that we were concerned about. So I felt that it worked well.
    There were some issues that came up suddenly that couldn't 
have been the subject of preparations. Those had to be 
discussed very much on the fly. I think that is in the nature 
of the process, and there's just no way you can anticipate 
everything. In fact, I would fault some of our trading partners 
for not doing a better job of coordinating with us in advance 
so that we might have been better prepared for some of the 
things that we would have possibly supported had we known about 
them in advance. But I can't fault the internal U.S. Government 
process for those lost opportunities; I think our trading 
partners could have done a better job. So I am not here to 
complain about the preparation for WRC 2003.
    Mr. Turner. Mr. Readdy.
    Mr. Readdy. Well, I have to say from the NASA perspective 
we achieved all our aims at WRC 2003. I'd go back to some 
points made by the other panelist. It comes down to, I think, 
continuity of the effort, and we are engaged continuously in 
establishing the technical bases for our positions and helping 
our colleagues in the other agencies and departments do that. 
Ambassador does have a term of only 6 months because of 
limitations of the appointment process. Perhaps continuity is 
the place where we could make the most progress.
    Mr. Turner. Mr. Gallagher.
    Mr. Gallagher. Thank you. From NTIA's perspective, we share 
and reinforce the statements that Under Secretary Shane and Mr. 
Readdy have made that the early preparation was critical, and 
that is by far the biggest focal point of whether we are going 
to succeed or not in the World Radio Conference. We did it 
here.
    I also would say that it was particularly important, having 
lived through this, that it was having a timely CPM submission 
to CITEL was also critical. That is a cleavage point in the 
process was important, and that was a stressful exercise, but I 
think it is stressful under any circumstances. I don't think 
there's anything you can do in particular to make it better 
than it was.
    I would point to resource issues perhaps. There were a 
number of discussions where it was unclear how gaps were going 
to be filled from a resource perspective. Again, it underscores 
the commitment of the team to accomplish the mission that we 
found them, and the Department of Defense I think is to be 
credited with stepping in and filling that void in a 
substantial way.
    Those would be the responses to the question for 
improvement.
    Commissioner Abernathy. Thank you, Mr. Chairman. The good 
news is that there were no failures. Were we on the edge 
sometimes? I mean, was this tough? Yes. And so I think the 
question is: how do we ensure that there's more stability, more 
reliability going forward, because, as was mentioned, it's only 
going to get harder. You're only going to have more countries 
having disagreements about how to allocate spectrum and you're 
only going to have more internal, local U.S. disputes about 
where should the spectrum go. We see it all the time at the 
FCC. We then go to NTIA because there's disputes between the 
different departments and between the private sector, and we 
end up having to pick and choose and try and make best guesses. 
And so when you're going to a global conference where you may 
be tying your hands for years to come on some of this spectrum, 
I think it becomes critical that we have the kind of 
coordination that we had in this instance. But one thing that 
was very important is that once Ambassador Obuchowski came 
onboard she had such expertise that she could jump in 
immediately. What if we hadn't had someone like that? So I 
think, looking at making sure the Ambassador gets appointed as 
soon as possible, continuing to ensure that there is 
coordination between these groups--because all these groups 
need to be represented anyway, regardless of how you do it. 
Every single entity that was at the table from the private to 
the government all had very real issues. They need to be there. 
We need to solicit their input. And then, once we finally land 
on a place for the United States, we need to go around and make 
sure we've got international allies, many times with countries 
that lack sophistication when it comes to telecommunications 
issues. So we are doing education at the same time we are 
trying to bring them on to our side.
    Resources and funding--always critical, always stressful, 
because none of us have a specific budget just for this. But I 
think the good news is, because it is so important to every 
agency, at the end of the day they do come forward and work 
together and provide what funding they can.
    Ambassador Gross. Thank you, Mr. Chairman. I would 
underscore and agree with all that has been said before. 
Looking ahead, what we learned from WRC 2003, which there were 
many things we learned, was the extraordinary importance of 
outreach and coalition building. As a number of people have 
testified this morning, we have only one vote amongst 
approximately 189. We cannot go it alone. We have no need and 
desire to go it alone. Rather, we need to build on a continuing 
basis coalitions. We do not and we cannot wait until the 
conference to build such coalitions. And so this is an ongoing 
process. It is ongoing now for WRC 2007. As Secretary Wells 
pointed out, this WRC 2003 was held right after the liberation 
of Iraq, an extraordinarily complex and difficult time in the 
international community. Yet, the work that had been done over 
the years of building coalitions, of building trust, of 
building information flows allowed us to go forward and to 
build coalitions at the meeting so that all U.S. objectives, 
both economic and national security related, were able to be 
achieved.
    What we've learned in 2003 underscores that which we knew 
before, which is: coalition building is always key in these 
international approaches.
    Thank you.
    Dr. Wells. Mr. Chairman, I think most everything important 
here has been said. I would just reiterate the two points I 
made earlier about the value of training for members of the 
delegation--I think we can do better on that--and establishing 
continuity by the senior leadership coordination that we're 
working even now to establish for WRC 2007. Thank you.
    Mr. Turner. My next question, I'm really interested in the 
structure issue again. We talk about cooperation, but the issue 
of authority is one that I think may not be very well defined 
here.
    The Department of State, as we know, has the statutory 
responsibility to provide the leadership on the U.S. 
international spectrum positions. So with the Department of 
State, how do you go about exercising this responsibility? Do 
you have authority for setting timelines and schedules for the 
other agencies? What is your oversight of the other agencies' 
participation? What if there's disagreement between the 
agencies? What if you get to the WRC and there's a policy shift 
that you want to make with the other agencies not being 
supportive?
    Another one that I find interesting, in listening to each 
of the testimony, almost every one of the agencies talked about 
their international partners, so you have each agency having 
international partners that affect their ability to be 
successful, when in the end it is the State that is going to be 
the liaison internationally on this matter. And I'd like to 
couple that with the reaction of the other agencies as to the 
appropriateness of the State in doing this, where obviously the 
technical expertise lies elsewhere.
    Thank you.
    Ambassador Gross. Thank you very much, Mr. Chairman.
    With regard to the timeline, certain of the timelines are 
established by the International Telecommunications Union, 
itself. As a number of people have mentioned, there are dates 
that are established for the CPM meetings. One is held 
immediately after the WRC, one is held 6 months ahead of time. 
There are timeframes for getting our national submission in. 
There are similarly timeframes for getting our submissions in 
for some of the regional activities such as we've mentioned 
with CITEL and the like.
    Similarly, there are timeframes through the study group 
process where the hard, technical work is done in between the 
WRCs, and so that drives a lot of the timing, as well.
    Our job is to make sure that things are done in a timely 
fashion. Of course, part of the balance is also to make sure 
that it is done in an open and transparent way, both within and 
amongst the various agencies, but also with regard to the 
public participants, as well. We work very hard. We have a 
process, a Federal advisory process called the ITAC process 
that allows for that to happen, and I'm very pleased that, of 
course, all of the time commitments and needs have been met.
    With regard to oversight, we believe very strongly in a 
team oriented approach, and I cannot be more pleased with the 
responsiveness and the work that has been done by all of the 
agencies and also by the private sector as part of that team. 
Our oversight responsibilities are extraordinarily important, 
and we work very closely with the staffs, as well as with the 
appointed officials of each of the agencies, to make sure that 
all of the needs of the country are met. We meet periodically. 
I see everyone at this table on a fairly regular basis, if not 
a very regular basis, and these are issues that we talk about 
at that time.
    Also in the WRC 2003 process we had very few disagreements. 
There is an advisory process that the FCC is responsible for. 
There's an advisory process that NTIA heads up. Those processes 
then result in recommendations to us. But for a few important 
exceptions, there was harmony in that process. When there was 
not harmony, it was my job, because it was before the WRC 
Ambassador was appointed, to bring all the parties together, to 
make sure that everyone understood what the issues were, and to 
ensure that positions were reached. That happened with regard 
to the important 5 gigahertz issue, for example, and that was 
successfully resolved.
    So our ability to enforce and to promote harmony in those 
issues where it may not be easy to achieve is an 
extraordinarily important part of my responsibilities. Once the 
WRC Ambassador is appointed by the President, it becomes his or 
her responsibility as head of delegation, and I hand those 
responsibilities off.
    It is important to note that my role continues throughout 
this process. My job is to ensure that the WRC Ambassador has 
the resources necessary to achieve the goals and the missions, 
as is, in fact, as result of the work done by other people up 
here testifying and their agencies to ensure that happens, as 
well.
    Mr. Turner. Let's go to Mr. Shane with his comment on the 
process.
    Mr. Shane. Thanks, Mr. Chairman. I'm a little compromised 
in responding to this question because I am an alumnus of the 
Department of State. I spent 4 years there conducting aviation 
negotiations at a time when, as now, the Department of 
Transportation retained the technical expertise for 
international aviation.
    The truth is that if you look at these agencies which have 
all this technical expertise, I think you'll find that each one 
of us is unbelievably parochial. You would not want to vest the 
leadership for a process like this in any of us. I'm not going 
to speak for my sister agencies, but I'm going to speak for the 
Department of Transportation. We support the Department of 
State in this role. It conducts this role in a whole host of 
other economic areas where the stakes are very high and 
national interest is very high. It is terribly important that 
there be a facilitator, an arbiter of what the Nation requires, 
sorting out a whole variety of competing claims as we formulate 
a position for the WRC.
    I think the process works well. I must say I am attracted 
to the suggestions we've heard from Mr. Gallagher and Dr. 
Wells, for a senior leadership council, a group, a steering 
committee of some kind. I think that would enhance our 
preparatory process. But I am in favor of leaving the State 
Department in charge.
    I don't think you can overstate the value we get from the 
Foreign Service, from the array of embassies around the world 
that provide intelligence to the process, who are beating the 
bushes facilitating that essential outreach that makes the 
preparatory process successful and that ultimately makes our 
performance at the WRC successful.
    Mr. Turner. Well, before we go on, why don't we just ask 
blanketly, are there any other parochial members of the team 
that would like to argue contrary? [Laughter.]
    Dr. Wells.
    Dr. Wells. And I will yield to the Department of State for 
the coordination. But, you know, Mr. Chairman, we have been 
blessed with a Government of checks and balances and a 
distributed system of power and it has served us so well in so 
many areas. It served us here well, as well, but ultimately we 
understand when the position gets together and we have our 
national position, we have to turn to one leader, and I think 
there is no dispute from any of us that State has that role.
    It helps, as you mentioned, the bilateral links. It helps 
us to be able to get our national positions together as early 
as possible so that we can all go forward with one voice to 
participate and build the support for this one country/one vote 
through our bilateral channels, but I think we all understand 
at the end of the day we come back to support them.
    Mr. Turner. Thank you. While turning to Mr. Ruppersberger 
for his questions, I also want to recognize that Mr. Duncan of 
Tennessee has joined us, has been with us. Thank you.
    Mr. Ruppersberger. OK. First I want to get back to the WRC. 
Probably to Ambassador Gross, but really the whole panel, if 
you'd like--the panel is very talkative, so that's great. You 
have good opinions.
    At the WRC, who is our largest competitor? Did we reach out 
to them? Do our competitors have a more formalized structure 
that deals with the WRC, and how do we compare to them? That 
will be an interesting answer. And what can we learn from them 
and how they work? Why don't we start with you, Ambassador 
Gross, and then anyone else who has a comment.
    Ambassador Gross. Certainly. Actually, the questions you 
raise are very similar to the questions I raised when I first 
took this job.
    Mr. Ruppersberger. Good. That's why I asked them.
    Ambassador Gross. Our largest competitors are, not 
surprisingly, some of the largest countries and regions that 
economically compete with us and militarily compete with us. 
Spectrum, of course, equates into both of those categories very 
strongly. Having said that, there's also, and somewhat 
surprisingly, great commonality amongst those interests, and so 
what we have done is to work very aggressively to find those 
common areas that meet our needs and the legitimate needs of 
others.
    The economic piece is often the most difficult, and I would 
say that, for example, Europe often has a very different 
approach and some very different views, and it takes a lot of 
creativity and a lot of hard work to make sure that our views 
are found to be the consensus views.
    How others are organized----
    Mr. Ruppersberger. Well, what countries would it be, then? 
Can you answer that specifically?
    Ambassador Gross. Actually, for many of these purposes 
Europe speaks with a common voice. They work very hard--and 
this is one of the lessons that we have learned. This came up 
particularly in WRC 2000, where there was a lot of issues, and 
before that, having to do with mobile telephones and things of 
that nature.
    Mr. Ruppersberger. How about China?
    Ambassador Gross. China is extraordinarily important and 
takes this process extraordinarily seriously, because they both 
have the economic and the military aspects, as well. They 
recognize that.
    But let me just go back to Europe for a moment because 
China, of course, has the same situation that we naturally come 
from, which is it is a large, single country. One of the 
lessons that we have learned and one of the plays that we have 
taken out of someone else's playbook is the necessity of 
building coalitions in your back yard. So, for example, just as 
Europe has tried to work collectively and because they have so 
many votes by having common positions, we, too, have reached 
out in a very successful manner to our countries in our region 
through the CITEL process. I notice that there's a chart here 
and there's one up on the screens, as well, that shows CITEL. 
I'm a little concerned because it shows CITEL above the State 
Department, and I'm not sure that's really quite accurate. But, 
nevertheless, I think the purpose of that was really to show 
that we work very closely with the other administrations in 
CITEL, which include all of the Americas. That came to be a 
very important piece of the puzzle. So what we try to do is 
both do it bilaterally but also build these regional coalitions 
as Europe has.
    Mr. Ruppersberger. OK. Are they a more formalized structure 
than we have?
    Ambassador Gross. They have a more formalized structure, 
although I need to be careful here. We have a formal structure 
through CITEL. I think the question is whether or not we feel 
freer than some European countries to establish our own 
positions when our national security, our national economic 
interests demand that we reserve the right to do.
    Mr. Ruppersberger. I know my time isn't up, but we have a 
vote that has just been called.
    Mr. Turner. Mr. Duncan, you also have questions?
    Mr. Duncan. Yes. I'll try to be very quick, because I know 
we have some votes going on. I apologize. I've got three 
subcommittee hearings going on at the same time, so I have been 
in and out and I haven't heard all of the testimony. You've 
gone into this some on the last question, but I assume, from 
the bits and pieces I've heard, that, Ambassador Gross, you are 
the coordinator for the whole Government? Is that correct?
    Ambassador Gross. On international.
    Mr. Duncan. Because you've got so many different 
departments and agencies involved in this.
    Ambassador Gross. Yes.
    Mr. Duncan. And, just so I can learn a little bit about 
this, I know I've read Ambassador Bryant's testimony, and he 
has said somebody should be in charge of this for a couple of 
years at least instead of the 6-months. Do each of the 
departments and agencies have people who are working on this 
full time?
    Ambassador Gross. Let me first address--my job, as a 
statutory matter, is to lead the U.S. international 
telecommunications work that is done. That's an ongoing 
process. It's a 24/7 process. It is independent of the WRC 
process.
    Mr. Duncan. Right. So you are involved in many other things 
other than the WRC.
    Ambassador Gross. Precisely. Then, as we get closer to a 
WRC, we have traditionally over the past good number of years 
had appointed--actually, for a long period of time we have 
appointed someone to lead and head that delegation, in large 
part, a reflection of the intense time commitment that 
requires, which is somewhat different than many of the other 
international telecommunications activities that we do. But we 
also have many others, IT related, U.N. related, bilaterally 
related, and otherwise.
    Mr. Duncan. Let me ask you this. I don't know enough about 
this conference, and I've got to kind of be quick because we've 
got these votes, but how many people attend from all the 
countries to this conference?
    Ambassador Gross. Over 2,000.
    Mr. Duncan. And how big was the U.S. delegation?
    Ambassador Gross. About 170.
    Mr. Duncan. And what would you say was the No. 1 or main 
accomplishment of the U.S. delegation at the 2003 conference?
    Ambassador Gross. Well, I think the main accomplishment is 
that we had a whole series of accomplishments, and every single 
one of them----
    Mr. Duncan. Could you give me an example of one or two of 
those?
    Ambassador Gross. Certainly. On the economic side, it was 
getting spectrum for 5 gigahertz for the wireless LANS. Those 
are wi-fi related, a substantial economic development and one 
that really is very, very helpful for U.S. industry. I'll leave 
it to Dr. Wells perhaps on the Defense, but were a number of 
very important Defense-related successes that we had to help 
national security and to protect national security from certain 
threats that had gone otherwise. We had a whole series of these 
types of issues and balancing issues. We had some very 
important--on the space side, some very important developments 
that we were able to accomplish for----
    Mr. Duncan. Do you think that you speeded up the process of 
warning about terrorist activities in that conference, or did 
you get much into that?
    Ambassador Gross. I would say that behind much of the 
activity was the recognition of the need for national security, 
whether it is terrorist or other threats; that because the WRC 
was held right after the Iraq invasion and, of course, after 
September 11, it was close to all of our hearts and minds. And 
I will say not only for ours, but also for many other 
delegations, as well.
    Mr. Duncan. Can you give me--since you are the lead man 
here, can you give me some wild, rough guess as to how much it 
costs the taxpayers or the U.S. Government in preparation and 
actual attendance for one of these conferences, because we 
prepare for it for several years.
    Ambassador Gross. There are a couple pieces to that. With 
regard to the State Department, there are the costs for many of 
the 30-some people who work for me and in my group, many of 
whom are devoted full time to the WRC process. In addition, we 
have out of pocket expenses, something in the order--I think 
the allocation is something in the order of between $300,000 
and $400,000. But, of course, all of the agencies at this table 
and many other Federal agencies spend a tremendous amount of 
their resources, and I would leave it to them to determine 
whether----
    Mr. Duncan. So you can't give me a wild guess then?
    Ambassador Gross. Wild guess? I could give you probably a 
helpful guess. I would rather be able to look to my colleagues 
for more----
    Mr. Duncan. Since we don't have time, I would appreciate it 
if you would contact these other agencies and see if you can 
come up with some sort of a reasonable estimate.
    Have you set any preparatory deadlines for developing the 
U.S. positions for the 2007 conference?
    Ambassador Gross. Yes. There are deadlines established by 
the International Telecommunications Union. We need to get ours 
in for about 6 months in advance of the WRC 2007. In addition, 
we have deadlines for CITEL, which is our regional group that 
drives a lot of it. But we also have our self-imposed 
deadlines, and we are working on that now. Part of the tension, 
I should quickly add, though, is we have to balance very 
carefully our strong desire to have our firm positions early 
enough to be effective in our international outreach, but not 
so early as to lock us into positions that we will want to 
change as world events and economics and technology changes.
    Mr. Duncan. So if we don't----
    Ambassador Gross. It's a continuing balancing.
    Mr. Duncan. If we don't change this Ambassador's position, 
then we basically have to have all our positions developed 
before someone is even appointed as Ambassador?
    Ambassador Gross. That's right. And we don't wait for that.
    Mr. Duncan. OK. Thank you very much.
    Mr. Ruppersberger. Real quick?
    Mr. Turner. Real quick, go ahead.
    Mr. Ruppersberger. I'll probably throw it out and have to 
leave you, and I won't be coming back. We talked about 
coordination, pulling together, and it is difficult when you 
have a lot of different groups, but you need to have one boss, 
and by statutory that's the Department of State. Now I want to 
throw this out because I think that in management you have to 
put your goals out, your mission. You have to be held 
accountable for what you do and you have to have a structure 
and you have to have a plan, so these questions really I would 
ask and I'm probably not going to be able to listen to the 
answers. How does the Department of State exercise the 
responsibility of leadership? Are you responsible for setting 
timelines and schedules of the U.S. WRC preparatory process at 
the FCC and NTIA? How does the State Department provide 
oversight of the WRC preparatory process? And how do you 
determine the effectiveness and success of the U.S. delegation 
at WRC?
    I think these are relevant. We talked about working 
together and what our plan is, but this gets into the specifics 
of management, and that's your role. So if you could answer 
those. How much time do we have; 5 minutes. We're going to have 
to leave. Maybe you could get those back to us in writing.
    Mr. Turner. Sorry. We have 5 minutes to get to the vote, 
but I do want to give you the real quick opportunity, if anyone 
wants to add anything in closing, comments that they've thought 
of that they want to add to the record. Obviously, you can do 
that also in writing, but if there are any closing comments you 
would like to make at this point--anyone? Yes, Ambassador?
    Ambassador Gross. If I may, let me just underscore one 
extraordinarily important thing that was touched on but can't 
be overstated, and that is the extraordinary dedication and 
work that the staffs do of each of our departments in working 
together. They are extraordinarily dedicated and 
extraordinarily good, and you find tremendous continuity. If 
you look around at other delegations around, nobody does a 
better job. No other administration, no other country does a 
better job than the United States year in, year out, in 
accomplishing these goals.
    Thank you.
    Mr. Turner. Ambassador, we appreciate your comments. I 
would appreciate your patience as we run. We didn't want to 
have you to be held, because it looks like it might be as much 
as 45 minutes before we return, so we did want to be able to 
dismiss this panel. Thank you for participating.
    [Recess.]
    Mr. Turner. For the record, let's just note that I 
introduced all of our panel members and that they responded in 
the affirmative to the oath. We'll begin with Mr. Bryant.

    STATEMENTS OF JOHN BRYANT, FORMER CONGRESSMAN AND U.S. 
  AMBASSADOR TO 1997 WORLD RADIO CONFERENCE; GAIL SCHOETTLER, 
  U.S. AMBASSADOR TO 2000 WORLD RADIO CONFERENCE; AND JANICE 
   OBUCHOWSKI, U.S. AMBASSADOR TO 2003 WORLD RADIO CONFERENCE

    Ambassador Bryant. Thank you, Mr. Chairman. I thank you for 
inviting me to offer observations on the World Radio 
Conferences and also thank the committee now as a private 
citizen for taking time to get into this arcane area. It is 
very complicated and very time consuming, and you're not going 
to be asked any questions about it at a town meeting, I assure 
you, but it is very, very important.
    I was the 1997 WRC Ambassador. I had been on the 
Telecommunications Subcommittee here for 14 years, and I assume 
I was chosen because of a presumption that I knew something 
about telecommunications and perhaps had some skills that might 
lend itself to the job. The fact is, though, that I was, as I 
learned, the latest in a long line of WRC Ambassadors, very few 
of whom possessed any significant knowledge about the very 
complicated technical substance of international spectrum 
allocation, and I don't think any of them, like me at the time, 
had any knowledge of the institutional history or the dominant 
personalities in the World Radio Conference.
    As a result, I was suddenly in charge of the delegation 
that was being formed, I was in charge of the process of 
forming our agenda for the conference, responsible to see that 
we succeeded at the conference, yet I knew less about the 
process probably literally than any other participant in the 
entire process. The conference was only months away, as I was 
chosen in about February, as I recall, and I believe we had 
that conference in the fall, probably in October. It has been a 
while, but I think I am correct about that.
    I rose to the occasion, I believe. Our delegation did a 
great job. We had terrific people. But I think that the process 
does not serve our critical national interest unless it has 
changed a lot since I did it, and from listening to the 
previous panel it doesn't sound like it has changed 
fundamentally. I think that our interests were placed at risk 
by a process that begins too late, that lacks year-round 
management for long-term objectives, and is under-funded. And I 
don't want to suggest it totally lacks year-round management. 
It does not totally lack that. But I do not think that we have 
year-round management for the outcome of the WRC.
    I offer the following four recommendations to support my 
position.
    First of all, the responsibility for the World Radio 
Conference, as well as the rank of Ambassador, should be given 
to either a Presidential appointee or a career Foreign Service 
professional who works year round in the International 
Telecommunications Union process. I think that our tradition of 
on-the-job training should be discontinued in favor of the same 
type of professional management of spectrum allocation that is 
employed by other countries, including our most important 
rivals in this process.
    Between radio conferences, there are a huge number of 
conferences, decisions, study groups, and other activities of 
the International Telecommunications Union. They have a bearing 
on the relations between the participating nations, they have a 
bearing on the relations between the dominant individuals and 
their long-term policy decisions, and unless the leader of our 
effort is able to actually participate in the process, it's not 
going to be managed with an eye to maximizing the effectiveness 
and the ability of our delegation to fulfill our objectives at 
the subsequent conference.
    Mr. Chairman, I would like to make an analogy that I think 
is quite apt, and that is this: appointing a delegation head 
for 6 months is about like a congressional district electing 
somebody to serve the last 6 months of a 2-year cycle and 
expecting them to be able to come up here and understand the 
institutional history, who the people are, and match wits with 
Henry Hyde and John Dingle. It's about the same thing. That's 
what we did while I was there in 1997. I think that's still 
what's going on, based upon what the last panel has said in its 
testimony.
    Second, if the WRC Ambassador is to continue to be a 
Presidential appointee, that person should be appointed at 
least 2 years before the next scheduled World Radio Conference 
and it should be a full-time job. Preparation for this process 
is critical. I don't think it is possible to describe the 
complexity of trying to master everything from ship-to-shore 
radio to the most complicated satellite systems, much of the 
substance of which has a lot to do not only with our critical 
economic interests, but with our intelligence operations, our 
military operations, and a whole variety of other aspects.
    Like every diplomatic effort, the mix of international 
interests, personalities, and, in this case, technical issues, 
is extremely complicated. I think it is disconcerting to think 
that the newly appointed head of the U.S. delegation starts off 
presiding over U.S. stakeholders, all of whom know more than he 
or she does and all of whom, at the international level, are 
familiar with each other from having worked with each other for 
many years, but the U.S. head of delegation does not have those 
relationships.
    Third, I know that everybody who comes here says the same 
thing, but funding for this operation ought to match its 
critical importance. At the very least, the WRC Ambassador, if 
we continue the current system that I'm advocating should 
change, but if we continued it they ought to have a staff and 
office--it doesn't need to be very large, because they are well 
supported by the allied agencies that testified in the first 
panel, but they need at least that.
    Fourth, they need the ability to travel. I was hindered in 
my efforts by the inability to make some trips that I thought 
were critical in order to deal face to face with the principal 
people that we were going to be dealing with at the conference, 
either to convince them of our position or to try to understand 
their position so we could craft a compromise. The WRC 
Ambassador ought to be able to do one-on-one communication in 
the same way that a Member of Congress needs to do that with 
other Members of Congress.
    Finally, I believe the State Department should continue to 
have principal responsibility for the WRC process. Ultimately 
these issues are geopolitical in nature. They are not technical 
issues. It is easy to obscure the geopolitical nature of this 
whole process by becoming wound up in the complex technical 
substance of it. We had the situation while I was the 
Ambassador, for example, of Israel and Palestine not wanting to 
do certain things together. The way in which we dealt with them 
had some ramifications that were totally different than 
anything involving the substance of WRC. I had to have 
instructions about how to deal with that. We had at that time 
the former Yugoslavia. I think one of the countries was 
attempting to take the place of the former Yugoslavia, or 
something like that. The State Department needs to be able to 
give instructions with ease with regard to how those matters 
are handled.
    Additionally, in that year we had our major rivals trying 
very hard to intervene and to change some things that were 
extremely important to us at the very highest level, not the 
smallest of which was to change the way in which we handled 
global positioning systems. I had to call upon higher-ups in 
the State Department to deal with this matter at higher 
diplomatic levels than the position that I held. That needs to 
be able to happen with ease if the public interest is to be 
served. So I think the State Department has done a good job in 
this area. I do think that this person, though, that heads this 
delegation ought to be picked earlier, given resources, and 
supported in the fashion that I have described.
    Thank you for letting me testify.
    Mr. Turner. Thank you.
    [The prepared statement of Ambassador Bryant follows:]

    [GRAPHIC] [TIFF OMITTED] T5268.069
    
    [GRAPHIC] [TIFF OMITTED] T5268.070
    
    [GRAPHIC] [TIFF OMITTED] T5268.071
    
    Mr. Turner. Ambassador Schoettler, I'm going to give you 
the choice as to whether or not you proceed. You'd have about 7 
minutes for all of your comments, or we could wait until after 
the vote. Would you like to proceed?
    Ambassador Schoettler. I'll proceed, yes. I'll do it in 
less than 7 minutes.
    Thank you. I appreciate the chance to be here today, 
because the World Radio Communication Conference is so 
important to our national security and our economic 
competitiveness, so I'm going to, because of the time--and you 
have my testimony--I'll just summarize the recommendations that 
our whole delegation made. Grace, I'll leave with you a copy of 
all of the recommendations.
    We had 162 members, about half each from government and 
industry, and I think the large delegation made our job much 
easier because we were able to cover a huge number of meetings, 
unlike any other delegation there. We had people with high 
technical skills who were able to cover all of the various 
negotiations every day. And, quite honestly, our success was 
due to the excellence of our delegation. They were superb.
    Second, I had terrific people assigned to me by the Defense 
Department. NASA, Badri Younes, who is here today, is now at 
DOD, and the FCC, and they worked closely with me for 6 months 
managing the entire process. I can't tell you how important 
that was to the success of our delegation to have their 
expertise and their ability to manage.
    The State Department was outstanding. They provided me and 
for all of us office space. They enabled me to travel to 
important meetings around the world prior to the WRC, which was 
very, very important in setting up our negotiations. So one of 
my major recommendations is that they have sufficient funding 
to do that job.
    Other recommendations--engage in an extensive and vigorous 
outreach program with other countries before the WRC, both 
within our region and elsewhere. The politics of the WRC 
determine whether we win our positions or not. Commitments are 
made early. And developing countries, in particular, responded 
very positively to our reaching out to them, and their votes 
often ensured our success, again in a one country/one vote 
environment. I can't over-estimate the value of reaching out to 
and respecting the needs of other countries when you are the 
world's powerhouse. In Istanbul in 2000, each one of our 
delegation members also was assigned to a country who was 
there, and they maintained coordination with them, pushed our 
positions, and it was invaluable.
    I think the Ambassador should have suitable facilities, 
preferably a suite, for hosting other delegations, both for 
negotiations and social events. Again, it is because the 
delegates to the WRC think it is a huge honor to be invited to 
the U.S. Ambassador's suite. It is just so important and it was 
very critical to our success.
    I think the State Department should continue to be the lead 
Government agency for the WRC preparation for all of the 
reasons that you've heard. I believe it is very important for 
the WRC Ambassador to be a Presidential appointee and to report 
to a key White House official. It gives you the chance to 
convene warring parties and to solve internal problems, but it 
also provides great stature nationally and internationally.
    The WRC Ambassador should be appointed more than 6 months 
before the next WRC, and I think there is a technical problem 
there, but that I would urge Congress to overcome because 
leadership is so important.
    I think the delegation should be whatever size is needed to 
provide Government's unique expertise and to meet the needs of 
both industry and national security. As you've heard before, I 
believe a senior executive coordinating committee in Government 
under the leadership of the White House would be very helpful 
in overseeing WRC preparation.
    I also believe that Government and industry should 
negotiate directly to resolve differences on key issues; that 
it isn't a good idea to work only through government 
intermediaries. That's cumbersome and less effective. And our 
direct negotiations in 2000 helped our delegation to go to the 
WRC committed, completely committed to our proposals.
    A couple of other things I will just touch on very briefly, 
and that is establish a media strategy, because the Ambassador 
needs to be the spokesperson and it avoids rumors.
    So I'll just leave a copy of our delegation report, and I 
am going to let Janice now go, because we've probably got 3 
minutes.
    Thank you.
    [The prepared statement of Ambassador Schoettler follows:]

    [GRAPHIC] [TIFF OMITTED] T5268.191
    
    [GRAPHIC] [TIFF OMITTED] T5268.192
    
    Mr. Turner. Ambassador Obuchowski, if you are able in about 
3 minutes to conclude your comments, we'll adjourn the hearing.
    Ambassador Obuchowski. Perfect.
    You've heard of the three Tenors. We have the three 
Ambassadors. You can see we represent about a decade of 
experience and both political parties. I'm very happy to see 
the continuity in commitment to the country among us. In fact, 
Ambassador Schoettler made some excellent recommendations and 
passed them along to me, and I hope that our delegation was 
able to implement them.
    I also want to recognize this committee and thank you so 
much for your interest and for enabling three of your senior 
staff people represented today to come to Geneva. That 
communicated to everyone from around the world that this wasn't 
about one party or one agency; this was a unified national 
effort. It had a profound impact.
    Most of the good points have already been covered. I 
subscribe to almost everything I've heard. Every WRC takes on 
the coloring of its time in history. Given that our WRC was 
convened after September 11th and after the liberation of Iraq, 
this was certainly a WRC that was strongly influenced by 
national security considerations. At the same time, we were 
very proud that we had a very strong private sector. We had 
many commercial accomplishments, the most visible of which was 
Wi-Fi which you've already heard about.
    In talking about WRCs, this particular conference had 48 
agenda items and it reflected the complexity of these and the 
depth with which spectrum permeates our economy. So there's 
tremendous strategic importance that agenda reflected. We've 
had great leadership over the years and great organization, 
even though we use a very distributed process. But, you can 
always perfect things, and so I'd like to quickly touch on a 
couple of recommendations that I have in my testimony, which I 
will also leave, as well as our final report--a nice, colored 
copy.
    First, I'd like to subscribe to what CSIS said in its 
report. I commend that to you. They comment about the fact that 
this Conference represents major geopolitical and economic 
stakes wrapped in technical language, and so the strategic 
importance of WRCs should be emphasized.
    No. 2, we need a dedicated budget arrived at in consensus 
with all the agencies and then presented to the Ambassador. At 
that point you can work based on a much more tighter framed 
organization than sort of passing the cup. It works. It seems 
to always work but it is a drain of energy at the end of the 
day.
    We also need a blueprint. A lot of the institutional 
history that drives us resides in the hands of the Ambassadors 
and very dedicated staff. So I would suggest that we commit to 
either paper or CD-ROM the things that inevitably have to 
happen to knit together the delegation.
    My final recommendation goes to the President's spectrum 
initiative. I know that this committee has had other hearings 
and will have hearings about the importance of a national 
spectrum policy. We have very complicated issues on the table, 
and in order to drive them in a timely fashion we do need that 
top-down vision. That will, in turn, enable us to prepare our 
recommendations more quickly and to drive them up through the 
various stove pipes of regional preparations around the world. 
For example, we can then use military bilaterals to drive some 
of our security recommendations, such as in Europe before there 
is a unified position. That would be my final recommendation.
    I do want to thank you for the honor of testifying. We'll 
respond to questions when they come in writing so you can get 
on to your other work.
    Thanks.
    [The prepared statement of Ambassador Obuchowski follows:]

    [GRAPHIC] [TIFF OMITTED] T5268.072
    
    [GRAPHIC] [TIFF OMITTED] T5268.073
    
    [GRAPHIC] [TIFF OMITTED] T5268.074
    
    [GRAPHIC] [TIFF OMITTED] T5268.075
    
    [GRAPHIC] [TIFF OMITTED] T5268.076
    
    [GRAPHIC] [TIFF OMITTED] T5268.077
    
    [GRAPHIC] [TIFF OMITTED] T5268.078
    
    [GRAPHIC] [TIFF OMITTED] T5268.079
    
    [GRAPHIC] [TIFF OMITTED] T5268.080
    
    [GRAPHIC] [TIFF OMITTED] T5268.081
    
    [GRAPHIC] [TIFF OMITTED] T5268.082
    
    [GRAPHIC] [TIFF OMITTED] T5268.083
    
    [GRAPHIC] [TIFF OMITTED] T5268.084
    
    [GRAPHIC] [TIFF OMITTED] T5268.085
    
    [GRAPHIC] [TIFF OMITTED] T5268.086
    
    Mr. Turner. We want to thank all of you for your service 
and the importance of this issue and also for your 
participation today.
    With that, we'll be adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5268.087

[GRAPHIC] [TIFF OMITTED] T5268.088

[GRAPHIC] [TIFF OMITTED] T5268.089

[GRAPHIC] [TIFF OMITTED] T5268.090

[GRAPHIC] [TIFF OMITTED] T5268.091

[GRAPHIC] [TIFF OMITTED] T5268.092

[GRAPHIC] [TIFF OMITTED] T5268.093

[GRAPHIC] [TIFF OMITTED] T5268.094

[GRAPHIC] [TIFF OMITTED] T5268.095

[GRAPHIC] [TIFF OMITTED] T5268.096

[GRAPHIC] [TIFF OMITTED] T5268.097

[GRAPHIC] [TIFF OMITTED] T5268.098

[GRAPHIC] [TIFF OMITTED] T5268.099

[GRAPHIC] [TIFF OMITTED] T5268.100

[GRAPHIC] [TIFF OMITTED] T5268.101

[GRAPHIC] [TIFF OMITTED] T5268.102

[GRAPHIC] [TIFF OMITTED] T5268.103

[GRAPHIC] [TIFF OMITTED] T5268.104

[GRAPHIC] [TIFF OMITTED] T5268.105

[GRAPHIC] [TIFF OMITTED] T5268.106

[GRAPHIC] [TIFF OMITTED] T5268.107

[GRAPHIC] [TIFF OMITTED] T5268.108

[GRAPHIC] [TIFF OMITTED] T5268.109

[GRAPHIC] [TIFF OMITTED] T5268.110

[GRAPHIC] [TIFF OMITTED] T5268.111

[GRAPHIC] [TIFF OMITTED] T5268.112

[GRAPHIC] [TIFF OMITTED] T5268.113

[GRAPHIC] [TIFF OMITTED] T5268.114

[GRAPHIC] [TIFF OMITTED] T5268.115

[GRAPHIC] [TIFF OMITTED] T5268.116

[GRAPHIC] [TIFF OMITTED] T5268.117

[GRAPHIC] [TIFF OMITTED] T5268.118

[GRAPHIC] [TIFF OMITTED] T5268.119

[GRAPHIC] [TIFF OMITTED] T5268.120

[GRAPHIC] [TIFF OMITTED] T5268.121

[GRAPHIC] [TIFF OMITTED] T5268.122

[GRAPHIC] [TIFF OMITTED] T5268.123

[GRAPHIC] [TIFF OMITTED] T5268.124

[GRAPHIC] [TIFF OMITTED] T5268.125

[GRAPHIC] [TIFF OMITTED] T5268.126

[GRAPHIC] [TIFF OMITTED] T5268.127

[GRAPHIC] [TIFF OMITTED] T5268.128

[GRAPHIC] [TIFF OMITTED] T5268.129

[GRAPHIC] [TIFF OMITTED] T5268.130

[GRAPHIC] [TIFF OMITTED] T5268.131

[GRAPHIC] [TIFF OMITTED] T5268.132

[GRAPHIC] [TIFF OMITTED] T5268.133

[GRAPHIC] [TIFF OMITTED] T5268.134

[GRAPHIC] [TIFF OMITTED] T5268.135

[GRAPHIC] [TIFF OMITTED] T5268.136

[GRAPHIC] [TIFF OMITTED] T5268.137

[GRAPHIC] [TIFF OMITTED] T5268.138

[GRAPHIC] [TIFF OMITTED] T5268.139

[GRAPHIC] [TIFF OMITTED] T5268.140

[GRAPHIC] [TIFF OMITTED] T5268.141

[GRAPHIC] [TIFF OMITTED] T5268.142

[GRAPHIC] [TIFF OMITTED] T5268.143

[GRAPHIC] [TIFF OMITTED] T5268.144

[GRAPHIC] [TIFF OMITTED] T5268.145

[GRAPHIC] [TIFF OMITTED] T5268.146

[GRAPHIC] [TIFF OMITTED] T5268.147

[GRAPHIC] [TIFF OMITTED] T5268.148

[GRAPHIC] [TIFF OMITTED] T5268.149

[GRAPHIC] [TIFF OMITTED] T5268.150

[GRAPHIC] [TIFF OMITTED] T5268.151

[GRAPHIC] [TIFF OMITTED] T5268.152

[GRAPHIC] [TIFF OMITTED] T5268.153

[GRAPHIC] [TIFF OMITTED] T5268.154

[GRAPHIC] [TIFF OMITTED] T5268.155

[GRAPHIC] [TIFF OMITTED] T5268.156

[GRAPHIC] [TIFF OMITTED] T5268.157

[GRAPHIC] [TIFF OMITTED] T5268.158

[GRAPHIC] [TIFF OMITTED] T5268.159

[GRAPHIC] [TIFF OMITTED] T5268.160

[GRAPHIC] [TIFF OMITTED] T5268.161

[GRAPHIC] [TIFF OMITTED] T5268.162

[GRAPHIC] [TIFF OMITTED] T5268.163

[GRAPHIC] [TIFF OMITTED] T5268.164

[GRAPHIC] [TIFF OMITTED] T5268.165

[GRAPHIC] [TIFF OMITTED] T5268.166

[GRAPHIC] [TIFF OMITTED] T5268.167

[GRAPHIC] [TIFF OMITTED] T5268.168

[GRAPHIC] [TIFF OMITTED] T5268.193

[GRAPHIC] [TIFF OMITTED] T5268.169

[GRAPHIC] [TIFF OMITTED] T5268.170

[GRAPHIC] [TIFF OMITTED] T5268.171

[GRAPHIC] [TIFF OMITTED] T5268.172

[GRAPHIC] [TIFF OMITTED] T5268.173

[GRAPHIC] [TIFF OMITTED] T5268.174

[GRAPHIC] [TIFF OMITTED] T5268.175

[GRAPHIC] [TIFF OMITTED] T5268.176

[GRAPHIC] [TIFF OMITTED] T5268.177

[GRAPHIC] [TIFF OMITTED] T5268.178

[GRAPHIC] [TIFF OMITTED] T5268.179

[GRAPHIC] [TIFF OMITTED] T5268.180

[GRAPHIC] [TIFF OMITTED] T5268.181

[GRAPHIC] [TIFF OMITTED] T5268.182

[GRAPHIC] [TIFF OMITTED] T5268.183

[GRAPHIC] [TIFF OMITTED] T5268.184

[GRAPHIC] [TIFF OMITTED] T5268.185

[GRAPHIC] [TIFF OMITTED] T5268.186

[GRAPHIC] [TIFF OMITTED] T5268.187

[GRAPHIC] [TIFF OMITTED] T5268.188

[GRAPHIC] [TIFF OMITTED] T5268.189

[GRAPHIC] [TIFF OMITTED] T5268.190

                                 <all>

</pre></body></html>
